           Office Of Inspector General




February 26, 2004

KEITH STRANGE
VICE PRESIDENT, SUPPLY MANAGEMENT

DONNA M. PEAK
VICE PRESIDENT, FINANCE, CONTROLLER

SUBJECT: Audit Report - Use of Reverse Auctions – Headquarters
         (Report Number CA-AR-04-001)

This report presents the results of our self-initiated audit of the Postal Service’s
use of reverse auctions under the FreeMarkets, Inc., contract (Project
Number 03XG028CA000).

The use of reverse auction events conducted by FreeMarkets, Inc., met user
requirements, and successfully maintained supplier relations. In addition, the Postal
Service identified cost savings for the reverse auction events; however, to date, the
criteria for calculating supply chain management savings is not complete and is not
published as a formal policy. Furthermore, subsequent to completion of the reverse
auction pilot program, Postal Service officials awarded a noncompetitive contract to the
FreeMarkets and did not perform a cost or price analysis or provide documentation of
price reasonableness. As a result, Postal Service management could be relying on
incorrect supply chain management reported savings when making project and budget
decisions and selecting commodities for purchase through the reverse auction process.
In addition, recognitions and awards based on claimed supply chain management
savings could be inaccurate. Finally, price or cost analyses are necessary to validate
price reasonableness for future efforts.

Management was pleased to receive confirmation that the reverse auction process
added value and that the tool was successfully meeting client requirements and
maintaining sound supplier relations. To clarify, the conclusions in this report relate only
to the reverse auction events conducted by FreeMarkets, Inc. from June 2001 through
May 2003. Management agreed with our recommendations and has initiatives in
progress, completed, or planned addressing the issues in this report. Management’s
comments and our evaluation of these comments are included in the report.

The Office of Inspector General (OIG) considers recommendation 2 significant, and
therefore requires OIG concurrence before closure. Consequently, the OIG requests
   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
written confirmation when corrective actions are completed. These recommendations
should not be closed in the follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the
review. If you have any questions or need additional information, please contact
Lorie Siewert, director, Supply Management and Facilities, at (651) 855-5856, or
me at (303) 925-7429.


/s/ Colleen A. McAntee

Colleen A. McAntee
Deputy Assistant Inspector General
 for Financial Management

Attachment

cc: Richard J. Strasser, Jr.
    Craig D. Partridge
    Susan M. Duchek
Use of Reverse Auctions – Headquarters                                                                 CA-AR-04-001



                                             INTRODUCTION
    Background                      Supply chain management institutionalizes new business
                                    practices, supplier relations, and organizational design and
                                    deployment to reduce overall costs and increase customer
                                    satisfaction. The Postal Service’s initial projected supply
                                    chain management cost reduction goal for fiscal year 2003
                                    was $200 million. Innovations such as reverse auctions are
                                    designed to contribute to cost reductions.

                                    Reverse auctions are live online bidding processes (also
                                    known as downward price auctions) designed to reduce
                                    overall costs and increase customer satisfaction.

    Objectives, Scope,              Our overall objective was to determine whether the Postal
    and Methodology                 Service’s use of reverse auctions is effectively achieving
                                    supply chain management cost reductions and customer
                                    satisfaction. Specifically, we evaluated reported savings,
                                    effectiveness of reverse auctions in satisfying user
                                    requirements and efforts to maintain successful supplier
                                    relations through the reverse auction process.

                                    We interviewed Supply Management and Finance
                                    personnel regarding reverse auction policies, procedures,
                                    future plans, and specific reverse auction events. We also
                                    reviewed all FreeMarkets, Inc., contracts and related
                                    modifications, reviewed contract files for 9 of 16 reverse
                                    auction events,1 and analyzed the methodology for
                                    computing cost savings. The scope of our review was
                                    limited to 16 reverse auction events conducted by
                                    FreeMarkets, Inc., from June 2001 through May 2003.

                                    This audit was conducted from June 2003 through
                                    February 2004 in accordance with generally accepted
                                    government auditing standards. We reviewed internal
                                    controls related to reverse auction events to the extent
                                    necessary under the circumstances. We discussed our
                                    conclusions and observations with appropriate management
                                    officials and included their comments, where appropriate.
                                    We did not rely on computer-generated data for this audit.

    Prior Audit Coverage            We did not identify any prior audits or reviews related to the
                                    objectives of this audit.
1
 We did not review reverse auction events for electricity, strapping machines and materials, industrial and automotive
batteries, natural gas, custodial rental items, maintenance, repair, and operating supplies, or belts.



                                                          1
Use of Reverse Auctions – Headquarters                                                                      CA-AR-04-001



                                              AUDIT RESULTS
                                    We found the use of reverse auction events conducted by
                                    FreeMarkets, Inc., met user requirements, and successfully
                                    maintained supplier relations. Specifically, the reverse
                                    auction events we reviewed added value to the Postal
                                    Service by enhancing competition, reducing cycle time for
                                    contract award, increasing cost savings, and improving
                                    strategic efforts to identify vendors. Additionally, when the
                                    purchasing teams conducted post-award briefings
                                    requested by the supplier, we found no evidence of
                                    dissatisfaction.

                                    The Postal Service used reverse auctions to purchase
                                    16 commodities or services2 and identified savings of about
                                    $54 million as shown.

                                                                                                               3
                                             Reverse Auction Events with Supply Chain Management Savings
                                                                                                        4
                                                  Commodity                         Reported Savings
                                       1 Plastic Pallets                               $ 1,805,000
                                       2 Personal Computers                                714,105
                                       3 Labels and Forms                                5,697,072
                                       4 Contact Center Network
                                         Solution                                       13,520,618
                                       5 Truckload Transportation                          500,000
                                       6 Software Testing and
                                         Validation                                      1,010,711
                                       7 Temporary Labor                                   547,200
                                       8 Plastic Hampers                                   292,950
                                       9 Commercial Air                                          0
                                                                                                  5

                                       10 Electricity                                    3,251,849
                                       11 Strapping Machines and
                                          Materials                                        402,750
                                       12 Industrial and Automotive
                                          Batteries                                        409,961
                                       13 Maintenance, Repair, and
                                          Operation Supplies                            14,958,434
                                       14 Natural Gas                                      710,922
                                       15 Custodial Rental Items                         8,561,039
                                       16 Belts                                          1,991,088
                                          Total                                       $54,373,699


2
  Reverse auction events conducted by FreeMarkets, Inc., from June 2001 through May 2003.
3
  We reviewed the process for calculating savings except for electricity, strapping machines and materials, industrial
and automotive batteries, natural gas, custodial rental items, maintenance, repair, and operating supplies, or belts.
4
  Reported savings reflect the first performance year of the contract.
5
  Postal Service did not award the Commercial Air contract based on reverse auction results.



                                                           2
Use of Reverse Auctions – Headquarters                                              CA-AR-04-001



                               However, to date the criteria for calculating supply chain
                               management savings is not complete and is not
                               implemented as a formal policy. Additionally, subsequent to
                               completion of the reverse auction pilot program, Postal
                               Service officials awarded a noncompetitive contract to the
                               same contractor and did not perform a cost or price analysis
                               or provide documentation of price reasonableness.

                               As a result, Postal Service management could be relying on
                               incorrect supply chain management reported savings when
                               making project and budget decisions and selecting
                               commodities for purchase through the reverse auction
                               process. In addition, recognitions and awards based on
                               claimed supply chain management savings could be
                               inaccurate. Finally, price or cost analyses are necessary to
                               validate price reasonableness for future efforts.

 Criteria for                  To date the criteria for calculating supply chain
 Calculating Supply            management savings is not complete and is not
 Chain Management              implemented as a formal policy. Specifically, Postal Service
 Savings Not                   officials did not establish relevant baseline criteria when
 Complete or                   historical spend data was not available. In addition,
 Implemented as a              procedures did not exist to reduce total verified savings, as
 Formal Policy                 a result of the use of reverse auctions, by the amount paid
                               to FreeMarkets, Inc., to conduct reverse auction events.
                               Additionally, as of January 2004, Postal Service officials had
                               not finalized or published a draft instruction to calculate
                               savings as a formal policy.

                               Draft Administrative Instruction SM 2003-008, Managing
                               Supply Chain Management Value, dated April 8, 2003,
                               defines net savings as the difference between prior year
                               spend and current year spend for the same or comparable
                               products, services, or activities. However, the draft
                               instruction did not establish relevant baseline criteria when
                               prior year spend data was not available and did not include
                               guidance for reducing savings by the cost to conduct
                               reverse auction events.

                               When prior year spend data for commodities or services
                               purchased through reverse auctions were not available,
                               Postal Service officials used initial bids as a substitute. In
                               these instances, Postal Service officials computed savings
                               by taking the difference between the successful supplier’s




                                                3
Use of Reverse Auctions – Headquarters                                                                 CA-AR-04-001



                                    initial and final bid.6 However, this practice was not
                                    contained in the draft instruction.

                                    Also, Postal Service management advised us that difficulties
                                    establishing criteria for calculating savings when historical
                                    and market prices are not available, and other specific user
                                    needs, resulted in delays in finalizing draft Administrative
                                    Instruction SM 2003-008.

                                    On October 9, 2003, we briefed Postal Service officials on
                                    our observations regarding the draft instruction.
                                    Consequently, Postal Service officials are revising the draft
                                    instruction to expand the guidance on calculating net
                                    savings. The proposed changes define net savings as “the
                                    difference between baseline spend (historical or current
                                    market, or other relevant baseline) and spend achieved
                                    through supply chain management actions for the same or
                                    comparable products, services, or activities.” The other
                                    relevant baseline provision does not preclude using initial
                                    bids in calculating savings.

                                    The total contract amount for FreeMarkets, Inc., to conduct
                                    reverse auction events through December 31, 2003, was
                                    about $5.66 million. However, total verified savings
                                    resulting from the use of reverse auctions were not reduced
                                    by the cost to conduct these reverse auctions, and the draft
                                    management instruction does not require an offset.

                                    Establishment of relevant baseline criteria ensures
                                    consistent supply chain management value calculations and
                                    increases the accuracy and reliability of reported savings.
                                    Additionally, reducing total verified identified savings by the
                                    cost to conduct reverse auction events will provide a more
                                    precise assessment of supply chain management impact.

    Recommendation                  We recommend the vice president, Supply Management, in
                                    conjunction with the vice president, Finance, controller:

                                        1. Enhance draft Administrative Instruction
                                           SM 2003-008, Managing Supply Chain Management
                                           Value, to include procedures for reducing total
                                           verified savings resulting from the use of reverse

6
 For temporary labor, the percentage difference in each labor rate was then applied to an estimate of prior year
spend.



                                                          4
Use of Reverse Auctions – Headquarters                                            CA-AR-04-001



                                         auctions by the amount paid to conduct reverse
                                         auction events.

 Management’s                  Management agreed with the intent of the recommendation.
 Comments                      Management stated that the current process does not
                               require a reduction to total verified savings for fixed costs
                               associated with supply chain management efforts; they
                               would prefer a net-based calculation. Management defers
                               action until completion of our upcoming review of the
                               methodology for reporting supply chain management
                               impact. Management’s comments, in their entirety, are
                               included in the appendix of this report.

 Evaluation of                 Management’s comments are responsive to the
 Management’s                  recommendation. While management defers action, our
 Comments                      review of supply chain management value methodology
                               used by Supply Management and Finance will examine a
                               net-based calculation to be applied uniformly to all supply
                               chain management initiatives when cost effective.

 Recommendation                We recommend the vice president, Supply Management, in
                               conjunction with the vice president, Finance, controller:

                                  2. Finalize and implement draft Administrative
                                     Instruction SM 2003-008, Managing Supply Chain
                                     Management Value, to include procedures to define
                                     relevant baselines for computing supply chain
                                     management savings when historical or current
                                     market spend data is not available.

 Management’s                  Management agreed with our recommendation and is in the
 Comments                      process of finalizing the draft administrative instruction to
                               include establishing baselines when historical or current
                               market spend data is not available. Postal Service is
                               targeting quarter 3, fiscal year 2004 to finalize the
                               administrative instruction.

 Evaluation of                 Management’s comments are responsive to the
 Management’s                  recommendation, and actions taken or planned should
 Comments                      correct the issues identified in the report.

 Fair and Reasonable           On April 5, 2000, the Postal Service awarded a
 Determination of              noncompetitive contract to FreeMarkets, Inc., for a pilot
 Contract Price Not            project to provide online reverse auction services.
 Documented                    Subsequently, on January 3, 2001, the Postal Service


                                                  5
Use of Reverse Auctions – Headquarters                                              CA-AR-04-001



                               continued the reverse auction program by awarding the
                               same contractor a noncompetitive commercial ordering
                               agreement that expired December 31, 2003.

                               According to Postal Service officials, a cost or price analysis
                               was not prepared before awarding the commercial ordering
                               agreement. During a later noncompetitive extension
                               (April 2002), the contracting officer prepared a business
                               case and performed a market analysis. However, the
                               contract file did not include sufficient documentation to
                               support a fair and reasonable negotiated price. Additionally,
                               Postal Service officials informed us that they will extend the
                               existing contract for another six months and they will
                               prepare a business case that includes a determination of
                               price reasonableness. Postal Service management
                               explained that seeking competition for this short extension
                               period would be time consuming, cost prohibitive, and
                               otherwise not in the best interests of the Postal Service.
                               Postal Service officials informed us that after the extension
                               period, they will migrate from full service to an in-house
                               desktop reverse auction environment, and currently efforts
                               are underway to solicit competitive offers.

                               Purchasing Manual, Section 5.1.1.b, General
                               Responsibilities, requires the purchase team to perform a
                               price or cost analysis to evaluate initial contract prices and
                               for pricing modifications to ensure that prices are fair and
                               reasonable.

                               Performance of and documentation of a cost or price
                               analysis will ensure future prices are fair and reasonable.

 Recommendation                We recommend the vice president, Supply Management,
                               direct the manager, Supply Management Strategies:

                                  3. Perform and document a price or cost analysis or
                                     obtain adequate competition before awarding future
                                     contracts or modifications for reverse auction events.

 Management’s                  Management agreed with the recommendation and stated
 Comments                      that the contract file now contains price reasonableness
                               documentation for final extension of the reviewed contract.




                                                6
Use of Reverse Auctions – Headquarters                                        CA-AR-04-001




 Evaluation of                 Management’s comments are responsive to the
 Management’s                  recommendation, and actions taken should correct the
 Comments                      issues identified in the report.




                                               7
Use of Reverse Auctions – Headquarters                CA-AR-04-001



                  APPENDIX A. MANAGEMENT’S COMMENTS




                                         8
Use of Reverse Auctions – Headquarters       CA-AR-04-001




                                         9
